APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Sixth Circuit (August 27, 2019) ................... 1a
Judgment of the United States Court of Appeals
for the Sixth Circuit (August 27, 2019) ........... 16a
Memorandum Opinion of the United States District
Court for the District of Tennessee
(November 19, 2018) ........................................ 18a
Judgment of the United States District Court
for the District of Tennessee
(November 19, 2018) ........................................ 38a
COMMUNICATIONS BETWEEN
SCHOOL SYSTEM AND COACH SENSABAUGH
Text Messages Between Coach Sensabaugh and
Director Halliburton (September 22, 2017)..... 40a
Text Messages Between Coach Sensabaugh and
Principal Wright (September 22, 2017) ........... 41a
Text Messages Between Coach Sensabaugh and
Mayor Eldridge (September 22, 2017) ............. 43a
Text Messages Between Coach Sensabaugh and
Director Halliburton (September 24, 2017)..... 45a
Text Messages from Becky Campbell of Local
Media to Coach Sensabaugh
(September 25, 2017)........................................ 46a
Letter of Guidance from Peggy Wright to
Coach Sensabaugh (October 5, 2017) .............. 47a

APPENDIX TABLE OF CONTENTS (Cont.)
SCHOOL SYSTEM DOCUMENTS
Separation Practices for
Non Certified Employees ................................. 52a
Engagement Letter of Ensley Baker Shade
(October 9, 2017) .............................................. 54a
Comptroller’s Investigative Report
(May 21, 2018) .................................................. 57a
SOCIAL MEDIA POSTS
Social Media Posts:
Josh Kite and Kimber Halliburton
(January 2017-April 2017) ............................... 63a
Social Media Posts: Kimber Halliburton,
Principal Combs, Peggy Wright, and
Jonesboro Elementary (September 22, 2017) .. 68a
Sensabaugh Facebook Post
(September 22, 2017)........................................ 86a
Sensabaugh Facebook Post
(September 24, 2017)........................................ 90a

App.1a
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT
(AUGUST 27, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
937 F. 3d 621
________________________
GERALD SENSABAUGH,

Plaintiff-Appellant,
v.
KIMBER HALLIBURTON,
Individually and in Her Official Capacity
as Director of Schools; WASHINGTON COUNTY
BOARD OF EDUCATION,

Defendants-Appellees.

________________________
No. 18-6329

Appeal from the United States District Court
for the Eastern District of Tennessee at Greeneville.
No. 2:18-cv-00011—
Pamela Lynn Reeves, Chief District Judge.
Before: ROGERS, BUSH, and LARSEN,
Circuit Judges.
LARSEN, Circuit Judge.

App.2a
Gerald Sensabaugh, the former head football coach
at David Crockett High School in Washington County,
Tennessee, made two Facebook posts expressing his
concerns about the conditions and practices of schools
within the Washington County School District. He
claims that he was fired as a result. He sued School
Director Kimber Halliburton, raising a First Amendment retaliation claim, and the Washington County
Board of Education (the Board), raising a municipal
liability claim. The district court granted summary
judgment to Halliburton because Sensabaugh had failed
to show that Halliburton had violated his constitutional rights. And because Sensabaugh had failed to establish an underlying constitutional violation, his municipal
liability claim against the Board also failed. For the
reasons stated, we AFFIRM.
I.
Sensabaugh became head football coach at David
Crockett High School in 2017. The school is within the
Washington County School District and is overseen by
the Board. Halliburton is the Director of Schools for
the Washington County School District. Sensabaugh’s
immediate supervisor was Athletic Director Josh Kite,
and his ultimate supervisor was Principal Peggy Wright.
On September 22, 2017, Sensabaugh visited an
elementary school within the district. The visit was
unrelated to his job. After the visit, Sensabaugh
posted on Facebook, decrying the conditions of the
elementary school. His post included photos of the
classroom, and one photo showed the faces of several
students. Upon seeing the post, the elementary school
principal contacted the district’s Director of Human
Resources, Susan Kiernan; the principal relayed his

App.3a
concern that the posts might violate the law or school
policy because the school might not have obtained
parental consent to show the students’ faces. Kiernan
relayed these concerns to Wright and Halliburton.
Halliburton, believing “that the public posting of
a photo showing a child’s face could be violative of both
the [Board’s] policy and the Family Educational Rights
and Privacy Act,” contacted the Board’s attorney,
Thomas Seeley. Wright and Halliburton tried to call
Sensabaugh to “instruct him to immediately remove
any photo showing a child’s face—but not any posts or
other content.” But Sensabaugh did not answer the
calls. Halliburton did briefly communicate with Sensabaugh by text message that evening. So did Wright,
whose text told Sensabaugh to remove the photos from
Facebook. Sensabaugh did not comply.
Two days later, Sensabaugh again posted on
Facebook; this post discussed his concerns with prisoners working at the high school. Halliburton texted
Sensabaugh after reading the post, telling him: “I see
you’ve posted something else before knowing all the
facts. Uncertain why you are not taking my calls. I
really would like to speak to you.” Later that day,
Wright and Halliburton spoke with Sensabaugh on
the phone. According to Halliburton:
Wright and I spoke to Sensabaugh by phone,
and attempted to address the safety concerns
that Sensabaugh raised and again requested
that he remove any photo(s) of the Jonesborough Elementary School children from
Facebook; we advised Sensabaugh that he
did not need to take down the post, just the
photo(s) of the students. . . . During this phone
conversation, Sensabaugh yelled at us and

App.4a
told us that he was not taking the photo
down. Then, he hung up on us.
Wright recounted the telephone call similarly, noting
that Sensabaugh “repeatedly interrupted us and he
yelled at us” and that “Halliburton and I could not
believe that Sensabaugh would speak to his supervisors
in this manner.” Halliburton also explained, “During
my more than fifteen years as a supervisor[ ] in the
education field, I have never had an employee speak
to me the way that Sensabaugh spoke to Wright and
me in that September 24, 2017 phone call.” Sensabaugh
explained the conversation as follows:
It was a very heated phone conversation and
Director Halliburton and Principal Wright
threatened me with my job as head football
coach. Director Halliburton and Principal
Wright both told me that they “could make it
where I would never coach football again
anywhere.”
After the conversation, Sensabaugh sent a text message
to Halliburton that read: “Just let me know the next
step. Fire me or deal with it.”
Based on Sensabaugh’s conduct during the phone
call, Halliburton consulted attorney Seeley on how to
proceed with “some level of corrective action.” Although
Halliburton wanted to fire Sensabaugh, Seeley recommended “a letter to address the issues with him and
give him a chance to correct his behavior.” Wright and
Halliburton drafted a Letter of Guidance, which
addressed not only Sensabaugh’s failure to remove the
photos from Facebook and his conduct during the
phone call, but other alleged misconduct, including his
use of profane language with students and his requir-

App.5a
ing a student to practice while injured. The letter
again directed Sensabaugh to remove the photos from
Facebook but stated, “At no time did we ask you to
delete any of your comments or opinions on social
media. You have the right to comment on matters of
public interest on social media.” The letter concluded,
“Failure to follow my directives may lead to discipline
up to and including termination as our football coach.”
After receiving the letter, Sensabaugh removed the
photos from Facebook.
Wright gave Sensabaugh the Letter of Guidance
at a meeting on October 6, 2017, during which Wright
claims that Sensabaugh “became agitated and began
pacing back and forth. As the meeting progressed, he
became belligerent and confrontational.” According to
Wright, “Sensabaugh interrupted my attempt to read
him the letter, but ultimately let me finish reading it.”
“At the meeting, Sensabaugh “accused his immediate
supervisor, [Athletic Director] Kite, of coming to work
‘high’ on the prescription medication, Oxycodone.”
Wright stated, “Sensabaugh threatened to expose Kite
to the media if we took any further action related to
Sensabaugh’s conduct.” At this same meeting, Sensabaugh also claimed knowledge of a student’s having
brought a gun to school. In a subsequent interview, Sensabaugh stated that the claim was hypothetical and
meant to illustrate that allegations of wrongdoing are
easy to make but difficult to prove. However, Sensabaugh acknowledged having heard an unsubstantiated
rumor that a student brought either a shotgun or BB
gun to school. Wright later explained: “I was very concerned that Sensabaugh waited until his own conduct
was being addressed to bring up something that
should have been reported immediately.”

App.6a
After the Letter of Guidance meeting, Sensabaugh
went straight to the cafeteria where he confronted an
athletic trainer and the injured student whom Sensabaugh had allegedly forced to practice. Later that
night, Sensabaugh allegedly directed profanity toward
his football players during a game, in direct violation
of the Letter of Guidance. And Sensabaugh allegedly
went around proclaiming “loudly so that everyone
around, including students, could hear: ‘Josh Kite has
a drug problem and has offered me Oxycodone. He
carries it around the school and I don’t care who hears
me.’” During a later independent investigation, Sensabaugh denied having directed profanity at the
students that night and making such statements about
Kite.
Sensabaugh’s conduct following the Letter of
Guidance meeting prompted Wright to contact attorney
Seeley to report her concern “that Sensabaugh posed
a threat to the safety of the students and staff.” Although Wright initially wished to fire Sensabaugh,
she and Halliburton ultimately agreed with Seeley’s
recommendation to instead issue a Letter of Reprimand.
The Letter of Reprimand recounted the incidents
leading up to its issuance, placed Sensabaugh on
administrative leave pending a full investigation by
an independent law firm, and warned Sensabaugh that
termination of his employment was possible. Wright
testified that “Sensabaugh was extremely rude and
insubordinate” when she read him the Letter of
Reprimand and explained that “[i]f Sensabaugh w[ere]
not already being suspended and investigated, [she]
would have immediately recommended his termination
based upon his conduct.”

App.7a
An independent law firm painstakingly investigated the alleged misconduct, interviewing “seventeen
different witnesses who were identified as potentially
having relevant knowledge or information” and reviewing scores of documents and text messages. This
included a lengthy interview with Sensabaugh. The
investigators concluded that Sensabaugh had used
profanity and had failed to follow instructions to
remove the photos from Facebook until after the
Letter of Guidance meeting. They determined that
Sensabaugh had been unprofessional and insubordinate during the Letter of Guidance and Letter of
Reprimand meetings as well as, afterward, in his
retaliation against the athletic trainer and studentathlete in the cafeteria. And they found the allegations
of Sensabaugh’s failure to report safety concerns and
to follow orders regarding practicing injured players
partially substantiated. The investigators’ report concluded:
[W]e find that Sensabaugh engaged in unprofessional, insubordinate, threatening and
retaliatory behavior towards supervisors, staff,
and students. Further, we find that Sensabaugh’s actions and statements intimidated,
demeaned, and undermined both his coworkers and his supervisors. We find that,
in light of this conduct, Principal Wright was
justified in placing Sensabaugh on administrative leave on October 10, 2017.
Moreover, it is inconceivable to these investigators that anyone could repeatedly speak
to his or her supervisors and co-workers in such
a belligerent and confrontational manner and
still expect to maintain an employment rela-

App.8a
tionship. Furthermore, we believe that Sensabaugh’s lack of civility and failure to treat
others with dignity and respect forecloses
any possibility of reinstatement. In the
investigators’ opinions, Sensabaugh’s behavior
warrants his permanent removal from the
position of Head Football Coach at DCHS,
and we recommend that Sensabaugh’s employment with DCHS be terminated.
While the investigation was ongoing, Sensabaugh
filed suit against Halliburton and the Board. Just over
a month later, Halliburton notified Sensabaugh that
the independent investigators had completed their
investigation and had recommended his termination.
Halliburton summarized the investigators’ findings
and recommendation in a letter, but offered the
following:
Before I make a final decision regarding your
continued employment, I wish to give you
every opportunity to respond to Attorney
Baker’s investigation. . . . I am asking you to
provide me with any written statements or
other evidence you wish me to consider in
your defense, whether in rebuttal to Attorney
Baker’s findings or in support of a less severe
punishment. Alternatively, you may request
a meeting with me to present your defense
and to explain why I should not terminate
you.
Sensabaugh never responded to Halliburton’s letter,
and Halliburton terminated Sensabaugh’s employment
on March 15, 2018.

App.9a
Sensabaugh then amended his complaint to include
claims based on his termination. Halliburton moved
for summary judgment based on qualified immunity,
and the Board moved to dismiss for failure to state a
claim. The district court granted the motions, holding
that Sensabaugh had not shown a violation of his First
Amendment rights, and without an underlying constitutional violation, Sensabaugh’s claim against the
Board also failed. Sensabaugh appealed.
II.
Sensabaugh argues that Halliburton retaliated
against him for exercising his First Amendment right
to speak in the form of two Facebook posts. To prevail
on his First Amendment retaliation claim, Sensabaugh
must show:
(1) [he] engaged in protected conduct; (2) an
adverse action was taken against [him] that
would deter a person of ordinary firmness
from continuing to engage in that conduct;
and (3) there is a causal connection between
elements one and two—that is, the adverse
action was motivated at least in part by [his]
protected conduct.

Bell v. Johnson, 308 F.3d 594, 602 (6th Cir. 2002)
(quoting Thaddeus-X v. Blatter, 175 F.3d 378, 394 (6th
Cir. 1999) (en banc)). If he makes this showing, “the
burden then shifts to the employer to demonstrate ‘by a
preponderance of the evidence that the employment
decision would have been the same absent the protected
conduct.’” Dye v. Office of the Racing Comm’n, 702
F.3d 286, 294 (6th Cir. 2012) (quoting Eckerman v.
Tenn. Dep’t of Safety, 636 F.3d 202, 208 (6th Cir.
2010)). If the employer makes such a showing, “sum-

App.10a
mary judgment is warranted if, in light of the evidence viewed in the light most favorable to the plaintiff, no reasonable juror could fail to return a verdict
for the defendant.” Id. at 294–95 (quoting Eckerman,
636 F.3d at 208). Halliburton disputes Sensabaugh’s
First Amendment retaliation claim and also asserts
qualified immunity. When a state official raises a
qualified immunity defense, the plaintiff must show
the violation of a clearly established constitutional
right. Harris v. Klare, 902 F.3d 630, 637 (6th Cir. 2018).
The district court concluded that Sensabaugh could
not show that the Letter of Guidance, the Letter of
Reprimand, or his termination violated the First
Amendment. While there is no dispute that Sensabaugh’s Facebook posts constituted protected speech,1
the district court determined that the Letters did not
constitute adverse actions, and that Sensabaugh could
not show any causal connection between the Facebook
posts and his termination. We address these conclusions in turn.
A.

Letter of Guidance and Letter of Reprimand

Sensabaugh first challenges the district court’s
determination that the Letters of Guidance and
Reprimand did not constitute adverse actions. To
establish an adverse action for First Amendment
retaliation purposes, “a plaintiff must show that
the action ‘would chill or silence a person of ordinary
firmness from future First Amendment activities.’”
1 Sensabaugh does not contend that the photos he posted to
Facebook were protected by the First Amendment or that
Halliburton’s request to have the photos removed violated his
First Amendment rights.

App.11a

Benison v. Ross, 765 F.3d 649, 659 (6th Cir. 2014)
(quoting Ctr. for Bio-Ethical Reform, Inc. v. City of
Springboro, 477 F.3d 807, 822 (6th Cir. 2007)). But

“[i]t is not necessarily true . . . that every action, no
matter how small, is constitutionally cognizable” as an
“adverse action.” Thaddeus-X, 175 F.3d at 396. In the
employment context, “[t]he term ‘adverse action’ has
traditionally referred to actions such as discharge,
demotions, refusal to hire, nonrenewal of contracts,
and failure to promote.” Dye, 702 F.3d at 303 (alteration omitted) (quoting Handy-Clay v. City of Memphis,
695 F.3d 531, 545 (6th Cir. 2012)).
We agree with the district court that the Letter of
Guidance was not an adverse action. The Letter had
no detrimental effect on Sensabaugh’s job as head football coach. As the district court noted, “[t]he issuance
of the Letter of Guidance did not itself impose any
discipline or alter Sensabaugh’s employment conditions
in any way.” Instead, it imposed directives that Sensabaugh had to follow to avoid discipline. The Letter
expressly permitted Sensabaugh to maintain his First
Amendment activities, by keeping the posts on
Facebook, and notified Sensabaugh that he could post
comments on social media in the future. As such, we
cannot conclude that the Letter of Guidance “would
chill or silence a person of ordinary firmness from
future First Amendment activities.” Benison, 765 F.3d
at 659.2
2 Sensabaugh also argues that Halliburton and Wright’s threat
to ensure that he “would never coach football again anywhere” constitutes an adverse action, either separately or when considered in
conjunction with the Letter of Guidance. The district court did
not consider the threat, perhaps because Sensabaugh’s complaint
identified only the Letter of Guidance, the Letter of Reprimand,

App.12a
The same goes for the Letter of Reprimand. The
Letter of Reprimand amounted to a suspension with
pay pending investigation by outside counsel. Several
panels of this court have determined that a suspension
with pay does not constitute an adverse action. See,
e.g., Ehrlich v. Kovack, 710 F. App’x 646, 650 (6th Cir.
2017) (First Amendment retaliation claim); Harris v.
Detroit Pub. Schs., 245 F. App’x 437, 443 (6th Cir.
2007) (same); Peltier v. United States, 388 F.3d 984,
988–89 (6th Cir. 2004) (Title VII discrimination claim).
Sensabaugh makes no attempt to grapple with this
caselaw on appeal; yet it is his burden to show the
violation of a constitutional right in order to overcome
Halliburton’s assertion of qualified immunity. Johnson
v. Moseley, 790 F.3d 649, 653 (6th Cir. 2015). Sensabaugh has not shown that the Letter of Reprimand constitutes an adverse action.
B.

Termination

There is no dispute that Sensabaugh’s firing was
an adverse action. But the district court found no causal
and his termination as adverse actions. In any event, threats
alone are generally not adverse actions for retaliation purposes.
See Hornbeak-Denton v. Myers, 361 F. App’x 684, 689 (6th Cir.
2010) (citing Mitchell v. Vanderbilt Univ., 389 F.3d 177, 182 (6th
Cir. 2004)). Does the threat in conjunction with the Letter of
Guidance make the Letter an adverse action? It does not. Despite
any statements made during a “heated” phone conversation, the
Letter of Guidance, issued a few days later, would have had no
detrimental effect on Sensabaugh’s job, provided that he complied
with reasonable requests related to his professionalism and
unrelated to the Facebook posts. Accordingly, even considering
the Letter of Guidance in light of the alleged threat, the Letter
does not constitute an adverse action. See Thaddeus-X, 175 F.3d
at 396.

App.13a
connection between Sensabaugh’s Facebook posts and
his termination. We agree.
To show causation, Sensabaugh “must demonstrate
‘that the speech at issue represented a substantial or
motivating factor in the adverse employment action.’”
Vereecke v. Huron Valley Sch. Dist., 609 F.3d 392, 400
(6th Cir. 2010) (quoting Rodgers v. Banks, 344 F.3d 587,
602 (6th Cir. 2003)). “A ‘motivating factor’ is essentially
but-for cause. . . . ” Leonard v. Robinson, 477 F.3d 347,
355 (6th Cir. 2007).3
Sensabaugh’s causation argument rests largely
on temporal proximity. Without a doubt, the Letter of
Guidance and the Letter of Reprimand came shortly
after the Facebook posts. The termination, however,
came almost six months later. And even if we agreed
that temporal proximity could provide a suggestion of
causation here, temporal proximity alone is rarely, if
ever, sufficient to establish causation. See Vereecke,
609 F.3d at 400. There generally must be other indicia
of retaliatory conduct. Id.

3 In challenging the district court’s causation determination,
Sensabaugh argues that, pursuant to the balancing test set forth
in Pickering v. Board of Education, 391 U.S. 563, 568 (1968), the
defendants have failed to “demonstrate[ ] that they have an
overriding interest in maintaining the efficiency of the WCSD
schools that outweigh Coach Sensabaugh’s protected speech.”
But the Pickering balancing test goes to the first element of a
First Amendment retaliation claim—whether a public employee
such as Sensabaugh engaged in constitutionally protected speech.
See Westmoreland v. Sutherland, 662 F.3d 714, 718–19 (6th Cir.
2011). The defendants have conceded that the Facebook posts
were constitutionally protected speech; accordingly, we need not
employ Pickering.

App.14a
We see none here. At no time leading up to the
termination did Halliburton ask or require Sensabaugh
to remove the Facebook posts. In fact, both the Letter
of Guidance and Letter of Reprimand explicitly
acknowledged Sensabaugh’s right to comment on public
concerns through social media. Moreover, a thorough
independent investigation preceded Sensabaugh’s
termination; that investigation concluded that the
misconduct allegations were substantiated in full or
in part, and that the misconduct supported termination.
Sensabaugh casts no doubt on the impartiality of the
investigation. And the evidence shows that Halliburton
relied on the investigation when firing Sensabaugh.
Halliburton offered Sensabaugh an opportunity to
respond to the investigation before she made any final
decision. Sensabaugh was offered similar opportunities
in the Letter of Guidance and the Letter of Reprimand.
But he never responded or gave Halliburton reason to
disbelieve the results of the independent investigation. And finally, Halliburton “relied upon the advice
of the [Board’s] attorney who agreed that termination
was the proper course” in the circumstances.
In sum, when deciding to terminate Sensabaugh’s
employment, Halliburton relied on, among other things,
the independent investigation, which went unrebutted
by Sensabaugh, and the advice of the Board’s attorney.
There is no indication that Sensabaugh’s Facebook
posts played any part in the final decision; indeed,
Halliburton repeatedly affirmed Sensabaugh’s right
to post them. Sensabaugh has not met his burden of
showing that the Facebook posts were a substantial or
motivating factor in his termination. Leonard, 477 F.3d
at 355. Accordingly, he has not shown that Halliburton

App.15a
violated his constitutional rights. Halliburton is entitled
to qualified immunity.
III.
Sensabaugh also sued the Board, alleging municipal liability pursuant to Monell v. Department of
Social Services of New York, 436 U.S. 658 (1978). But
because Halliburton did not violate Sensabaugh’s First
Amendment rights, the municipal liability claim also
fails. Robertson v. Lucas, 753 F.3d 606, 622 (6th Cir.
2014) (“There can be no liability under Monell without
an underlying constitutional violation.”).
[* * *]
We AFFIRM the judgment of the district court in
favor of the defendants.

App.16a
JUDGMENT OF THE UNITED STATES COURT
OF APPEALS FOR THE SIXTH CIRCUIT
(AUGUST 27, 2019)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
GERALD SENSABAUGH,

Plaintiff-Appellant,
v.
KIMBER HALLIBURTON, Individually and
in Her Official Capacity as Director of Schools;
WASHINGTON COUNTY BOARD OF
EDUCATION,

Defendants-Appellees.

________________________
No. 18-6329

On Appeal from the United States District Court
for the Eastern District of Tennessee at Greeneville.
Before: ROGERS, BUSH, and LARSEN,
Circuit Judges.
THIS CAUSE was heard on the record from the
district court and was submitted on the briefs of counsel
without oral argument.
IN CONSIDERATION THEREOF, it is ORDERED
that the judgment of the district court in favor of the
defendants is AFFIRMED.

App.17a

Entered by Order of the Court
/s/ Deborah S. Hunt
Clerk

App.18a
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF TENNESSEE
(NOVEMBER 19, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
________________________
GERALD SENSABAUGH,

Plaintiff,
v.
KIMBER HALLIBURTON, in Her Official and
Individual Capacities, and WASHINGTON
COUNTY BOARD OF EDUCATION,

Defendants.

________________________
No. 2:18-CV-11
Reeves/Corker

Before: Pamela L. REEVES,
United States District Judge.
This First Amendment retaliation action is brought
pursuant to 42 U.S.C. § 1983 by Gerald Sensabaugh,
the former head football coach at David Crockett
High School against the Washington County Board
of Education (the Board) and Kimber Halliburton in
her individual and official capacities. Sensabaugh
alleges that he engaged in protected speech in the form
of Facebook posts on September 22 and 24, 2017. Sen-

App.19a
sabaugh also alleges that in retaliation for these two
posts, he was subjected to the following adverse actions
that violated his First Amendment rights: (1) October 6,
2017 Letter of Guidance; (2) October 9, 2017 Letter of
Reprimand/Suspension; and (3) March 15, 2018 termination.
The case is presently before the court on two
motions: (1) Halliburton’s motion for summary judgment on the grounds of qualified immunity; and (2)
the Board’s motion to dismiss for failure to state a
claim under Federal Rule of Civil Procedure 12(b)(6).
Because Sensabaugh has failed to state a claim for
which relief can be granted and Halliburton is entitled
to qualified immunity, defendants’ motions will be
granted and this action dismissed in its entirety.
I.

Background

The backdrop for this case sounds like something
out of the movies: a high school football star from East
Tennessee makes it big in the NFL, plays eight years
professionally, and then returns home to coach a
previously mediocre high school program to “unprecedented success.” In Hollywood, the plot would
inevitably climax with the team overcoming long odds
to clinch the state championship. But in this case,
that’s not what happened. Instead, in the middle of
the football season, the school district called foul play
on the coach, the coach claimed the district was out of
bounds, and now the court must step in as referee.
In January 2017, the Washington County Board of
Education hired former Dallas Cowboys player Gerald
Sensabaugh to serve as the head football coach at
David Crockett High School. By October, the school’s
football team was ranked first in its region and

App.20a
classification. Despite the team’s success, Sensabaugh
had his mind on other matters. Specifically, he was
increasingly disappointed with certain issues in the
district—including deteriorating facilities and the
allocation of funding to the high school’s feeder
elementary schools—and he wanted to make his views
known.
On September 22, 2017, Sensabaugh visited Jonesborough Elementary School, one of the oldest buildings
in the district. Administrative personnel at the school
gave him permission to take photographs of the
classrooms, which included some students. Later that
day, Sensabaugh made a post on Facebook entitled
“The real problem in Washington County,” in which
he commented on the school’s design and poor learning
conditions for the students. The post also included
some photographs from his visit. Soon after the post
went live, Sensabaugh began receiving calls and texts
from the Washington County Director of Schools,
Kimber Halliburton. In one text, Halliburton wrote, “I
know you are trying to help. However, there is a
history and information I need to share with you. . . . I
need for you to know all the facts so that you can
better help us.” Sensabaugh was asked to remove any
photo showing a child’s face, but not any posts or other
content. Sensabaugh did not take the photo with the
children down as directed on September 22, 2017.
Two days later, on September 24, 2017, Sensabaugh made another Facebook post, entitled “The real
problem in Washington County Pt. 2.” In this post,
Sensabaugh commented on the district’s use of prison
laborers to perform certain school maintenance work
while students were on site. Approximately four hours
later, Sensabaugh received the following text from

App.21a
Halliburton: “I see you’ve posted something else before
knowing all the facts. Uncertain why you are not
taking my calls. I really would like to speak to you.”
Sensabaugh responded, “I don’t need to know all the
facts. Just my observation.” He agreed to call the
director shortly thereafter, and then texted: “Just let
me know the next step. Fire me or deal with it.”
On October 5, 2017, Sensabaugh received a “Letter
of Guidance” from Peggy Wright, the principal at David
Crockett High School. The letter addresses Sensabaugh’s alleged use of profanity when speaking to
students; his failure to follow doctors’ orders regarding
football players who have not been cleared to practice or
play; his unprofessional conduct in communicating
with other employees; and his failure to comply with
multiple requests to remove the photo depicting
students’ faces from his Facebook page. In the Letter
of Guidance, Wright once again directs Sensabaugh to
remove the photograph from Facebook but emphasizes
that “[a]t no time did we ask you to delete any of your
comments or opinions on social media.” The letter concludes with a warning that failure to follow the principal’s directives “may lead to discipline up to and
including termination as [the school’s] football coach.”
On October 9, 2017, Wright sent Sensabaugh a
second letter, reprimanding him for continued unprofessional conduct and recommending that he be placed
on administrative leave (“Letter of Reprimand/
Suspension”). The letter details additional allegations
against Sensabaugh, including arriving late to a
meeting; consistently interrupting and yelling at other
staff; spreading rumors that the athletic director is
addicted to and attempting to distribute Oxycodone;
threatening the athletic trainer in front of students

App.22a
and parents; and continuing to use profanity toward
players. Wright also mentions that several students
and employees have stated that they are fearful of
Sensabaugh.
The next day, on October 10, 2017, Sensabaugh
was placed on paid administrative leave, pending an
investigation into the allegations of improper conduct.
Phillip Baker of the law firm Ensley, Baker & Shade
was the lead attorney assigned to conduct the investigation.
On January 19, 2018, while the investigation was
ongoing, Sensabaugh filed suit against the Washington
County Board of Education and Director Halliburton.
He alleges that the defendants, acting under the color
of state law, retaliated against him in violation of his
First Amendment right to speak out on matters of
public concern. Sensabaugh denies the allegations
contained in the Letter of Guidance and the Letter of
Reprimand/Suspension, and states that they are merely
a “pretext” to mask defendants’ real motive: retaliating
against him for exercising his free-speech rights on
Facebook.
On February 23, 2018, Sensabaugh amended his
complaint to add additional facts and allegations related
to a letter that he received from Halliburton. In the
letter, Halliburton notifies Sensabaugh that Baker
completed his investigation and concluded that Sensabaugh “engaged in unprofessional, insubordinate,
threatening, and retaliatory behavior toward supervisors, staff, and students.” Based on these findings,
Baker recommended that Halliburton terminate
Sensabaugh’s employment as head football coach.
Halliburton informs Sensabaugh of this recommendation, and states that before she makes her final deci-

App.23a
sion, she wishes to give Sensabaugh the opportunity
to respond, and to provide her with evidence either to
rebut Baker’s findings or in support of a less severe
punishment. Sensabaugh contends that Halliburton’s
letter incorporating the “Baker Recommendation”
amounts to further adverse action against him. Sensabaugh did not respond to Halliburton’s letter, and
Halliburton terminated Sensabaugh’s employment on
March 15, 2018.
Defendants move to dismiss Sensabaugh’s complaint on grounds that Sensabaugh fails to allege an
actionable “adverse action,” and Halliburton is entitled
to qualified immunity.
II.

Standard of Review

To survive a motion to dismiss under Rule 12(b)(6)
of the Federal Rules of Civil Procedure, a complaint
must articulate a facially plausible claim for relief.
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009); Fed. R.
Civ. P. 8(a). When ruling on a Rule 12(b)(6) motion,
the court must construe the complaint in the light
most favorable to the plaintiff and accept all factual
allegations in the complaint as true. Bell Atlantic
Corp. v. Twombly, 550 U.S. 544, 555-56 (2007). Dismissal is appropriate only if the court finds that the
plaintiff “can prove no set of facts in support of his
claims that would entitle him to relief.” Meador v.
Cabinet for Human Resources, 902 F.2d 474, 475 (6th
Cir. 1990) (emphasis added).
Summary judgment under Rule 56 of the Federal
Rules of Civil Procedure is proper “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The moving

App.24a
party bears the burden of establishing that no genuine
issues of material fact exist. Celotex Corp. v. Cattrett,
477 U.S. 317, 330 n. 2 (1986); Moore v. Philip Morris
Co., Inc., 8 F.3d 335, 339 (6th Cir. 1993). All facts and
inferences to be drawn therefrom must be viewed in the
light most favorable to the nonmoving party. Matsushita Elec. Indus. Co. Ltd v. Zenith Radio Corp., 475
U.S. 574, 587 (1986); Burchett v. Keifer, 301 F.3d 937,
942 (6th Cir. 2002).
Once the moving party presents evidence sufficient
to support a motion under Rule 56, the nonmoving party
is not entitled to a trial merely on the basis of
allegations. Celotex, 477 U.S. at 317. To establish a
genuine issue as to the existence of a particular
element, the nonmoving party must point to evidence
in the record upon which a reasonable finder of fact
could find in its favor. Anderson v. Liberty Lobby, Inc.,
477 U.S. 242, 248 (1986). The issue must also be
material; that is, it must involve facts that might
affect the outcome of the suit under the governing law.

Id.

The court’s function at the point of summary
judgment is limited to determining whether sufficient
evidence has been presented to make the issue of fact
a proper question for the factfinder. Id. at 250. The
court does not weigh the evidence or determine the
truth of the matter. Id. at 249. Nor does the court
search the record “to establish that it is bereft of a
genuine issue of fact.” Street v. J.C. Bradford & Co.,
886 F.2d 1472, 1479 (6th Cir. 1989). Thus, “the inquiry
performed is the threshold inquiry of determining
whether there is a need for a trial–whether, in other
words, there are any genuine factual issues that properly
can be resolved only by a finder of fact because they

App.25a
may reasonably be resolved in favor of either party.”
Anderson, 477 U.S. at 250.
III. Discussion
“The First Amendment prohibits retaliation by a
public employer against an employee on the basis of
certain instances of protected speech by the employee.”
Ehrlich v. Kovack, 710 F. App’x 646, 650 (6th Cir. 2017).
To prove a claim of First Amendment retaliation, the
plaintiff must plead factual allegations that, if true,
establish the following three elements: (1) the plaintiff
engaged in protected conduct; (2) an adverse action
was taken against the plaintiff that would deter a
person of ordinary firmness from continuing to engage
in that conduct; and (3) there is a causal connection
between elements one and two—that is, the adverse
action was motivated at least in part by the plaintiff’s
protected conduct. Harris v. Detroit Pub. Sch., 245 F.
App’x 437, 442 (6th Cir. 2007). If the employee establishes a prima facie case, the burden shifts to the
employer to demonstrate by a preponderance of the
evidence that the employment decision would have
been the same absent the protected conduct. Once this
shift has occurred, summary judgment is warranted
if, in light of the evidence viewed in the light most
favorable to the plaintiff, no reasonable juror could fail
to return a verdict for the defendant. Dye v. Office of
the Racing Comm’n, 702 F.3d 286, 294-95 (6th Cir.
2012).
In the Sixth Circuit, an “adverse action” is one
that “would chill or silence a person of ordinary
firmness from future First Amendment activities.”
Benison v. Ross, 765 F.3d 649, 659 (6th Cir. 2014). The
phrase has traditionally referred to actions such as

App.26a
“discharge, demotions, refusal to hire, nonrenewal of
contracts, and failure to promote.” Fritz v. Charter
Twp. of Comstock, 592 F.3d 718, 724 (6th Cir. 2010).
However, “any action that would deter a person of
ordinary firmness from exercising protected conduct
will suffice.” Id. (emphasis added). Even so, the Sixth
Circuit cautions that courts “must be careful to ensure
that real injury is involved, lest we trivialize the First
Amendment. . . . ” Mezibov v. Allen, 411 F.3d 712, 721
(6th Cir. 2005). Determining whether an adverse action
has occurred is an objective inquiry, that must be
tailored to the circumstances. Stolle v. Kent State
Univ., 610 F. App’x 476, 483 (6th Cir. 2015).
In his complaint, Sensabaugh alleges that the
defendants took three adverse actions against him in
retaliation for his Facebook posts: (1) issuing the Letter
of Guidance; (2) issuing the Letter of Reprimand/
Suspension; and (3) terminating him from his position
as head football coach. The court will address the sufficiency of each action. If Sensabaugh can point to
facts supporting all three elements of a prima facie
case, the court will next consider whether defendants
can demonstrate that they would have taken the same
action regardless of Sensabaugh’s protected conduct.
A. Qualified Immunity
Qualified immunity shields government officials
from liability for civil damages insofar as their conduct does not violate clearly established statutory or
constitutional rights of which a reasonable person
would have known. Pearson v. Callahan, 555 U.S. 223,
231 (2009). Therefore, if a defendant asserts qualified
immunity, the plaintiff bears the burden of showing
(1) a violation of a constitutional right, and (2) that the

App.27a
right at issue was clearly established at the time of the
defendant’s alleged misconduct. Barker v. Goodrich,
649 F.3d 428, 433 (6th Cir. 2011). A clearly established right must be described to a reasonable degree
of certainty in Supreme Court or lower court precedent. For a right to be clearly established, the contours
of the right must be sufficiently clear that a reasonable official would understand that what she is doing
violates that right. In determining whether a constitutional right is clearly established, this court looks
first to decisions of the Supreme Court, then to decisions of the other courts within the Sixth Circuit. Bell
v. Johnson, 308 F.3d 594, 601-02 (6th Cir. 2002).
Qualified immunity is a personal defense that applies
only to government officials in their individual capacities. Everson v. Leis, 556 F.3d 484, 501 n. 7 (6th Cir.
2009).
Halliburton asserts that in deciding to terminate
Sensabaugh, she was entitled to rely on information
provided to her by (1) employees of the school system,
(2) students in the school system, and (3) the outside
law firm brought in to investigate the allegations. As
the Sixth Circuit explains:
In a case such as this where one officer’s
claim to qualified immunity from the consequences of a constitutional violation rests
on his asserted good faith reliance on the
report of other officers, we consider: (1) what
information was clear or should have been
clear to the individual officer at the time of
the incident; and (2) what information that
officer was reasonably entitled to rely on in
deciding how to act, based on an objective
reading of the information.

App.28a

Brown v. Lewis, 779 F.3d 401, 413 (6th Cir. 2015).
Halliburton provided a Declaration stating the
facts known to her at the time she issued the Letter of
Guidance, Letter of Reprimand/Suspension, and ultimately terminated Sensabaugh’s employment. In the
late summer of 2017, several members of the Board
reported to Halliburton that parents or others had
complained about the language that Sensabaugh was
using with the football players. Halliburton discussed
this with Principal Wright and Athletic Director Josh
Kite. Thereafter, Kite advised Halliburton that he had
discussed the issue with Sensabaugh and that Sensabaugh agreed to correct the problem. In mid-August of
2017, a parent complained to Kite about Assistant
Coach Treadway using profane and inappropriate language. Kite advised Sensabaugh to instruct Treadway
to stop using such language. On September 18, 2017,
Kite addressed with Sensabaugh his use of profanity.
Sensabaugh responded by asking Kite to extend the
caution tape at football games further out, implying
that would make it more difficult for others to hear
Sensabaugh on the sidelines. As the Letter of Guidance was being prepared, Wright interviewed several
students who told her that Sensabaugh had directed
the following phrases to or at individual students
/players or to the football team collectively. “You are
pieces of sh*t,” “You f**king sh*ts,” and “You mother
**kers.”
On September 22, 2017, Sensabaugh visited Jonesborough Elementary School. After his visit, he posted
the first Facebook post regarding conditions at the
school. As part of the post, Sensabaugh included photos
of a classroom with elementary school students. One
photo clearly showed the faces of two students. The

App.29a
principal of the school contacted the Director of Human
Resources and expressed his concern about the photo
showing students’ faces and advised that he did not
know whether the school had a written parent consent.
The HR Director then discussed the principal’s concerns with Wright and Halliburton. Halliburton was
aware that the public posting of a photo showing a
child’s face could be violative of both the Board’s policy
and the Family Educational Rights and Privacy Act.
Halliburton contacted legal counsel for the Board, and
then she and Wright attempted to call Sensabaugh
who did not answer. Halliburton instructed Wright to
contact Sensabaugh and direct him to immediately
remove any photo showing a child’s face, but not the
posts or any other content. Wright texted Sensabaugh
that he was directed to take down any photos showing
students’ faces but she did not direct Sensabaugh to
remove any post or content. Sensabaugh did not take
the photos down as directed.
On September 24, 2017, Sensabaugh posted on
Facebook safety concerns about prisoners doing
work on the school campus during school hours. Wright
and Halliburton spoke to Sensabaugh by phone and
attempted to address the safety concerns that Sensabaugh had raised and again requested that he remove
the photo of children from Facebook. They specifically
advised Sensabaugh that he did not need to take down
the posts, just the photo of the students. During this
conversation, Sensabaugh yelled at them and told
them that he was not taking the photo down. Then, he
hung up on them. He texted Halliburton “Just let me
know the next step. Fire me or deal with it.” Sensabaugh did not remove the photo showing students’

App.30a
faces until after the Letter of Guidance was delivered
to him at a meeting on October 6, 2017.
Halliburton states that at no time did she or
Wright instruct Sensabaugh to remove the Facebook
posts or instruct him to remove any content. The Letter
of Guidance specifically stated: “At no time did we ask
you to delete any of your comments or opinions on
social media. You have the right to comment on
matters of public interest on social media.” The Letter
of Guidance also addressed a concern raised by Athletic
Trainer Bryon Grant. Grant sent Sensabaugh an email
advising him that certain students were under the
care of a physician or trainer and should not play or
practice. According to information Grant provided to
Halliburton, Sensabaugh violated those instructions
by practicing one of the injured players. The Letter of
Guidance closed as follows:
I am directing you to bring any and all safety
concerns to me as principal. Furthermore, I
am directing you to immediately stop using
profanity when speaking to our students/
football players and to follow the athletic
trainer’s/doctor’s orders completely for injured
students to protect their safety. You are
further directed to refrain from yelling or
screaming at me, our Athletic Director, and
any other employee of the Washington County
School System. I am once again directing you
to take the picture of the Jonesborough
Elementary students off of your post on
social media to protect the privacy of the
students whose pictures you did not have
permission to use.

App.31a
Failure to follow my directives may lead to
discipline up to and including termination as
our football coach.
The issuance of the Letter of Guidance did not
itself impose any discipline or alter Sensabaugh’s
employment conditions in any way. And Principal
Wright’s warning to Sensabaugh that “[f]ailure to
follow my directives may lead to discipline up to and
including termination” does not constitute an adverse
action. The directives in the letter simply instruct
Sensabaugh to conform his behavior to certain standards of professional conduct unrelated to his right to
comment on matters of public interest on his Facebook
page. As Wright expressly acknowledges in the Letter
of Guidance: “You have the right to comment on matters
of public interest on social media.”
Even if the Letter of Guidance was issued as a
“pretext” to punish Sensabaugh for his social media
comments, the court finds that a written reprimand,
without more, is insufficient as a matter of law to support a First Amendment retaliation claim. The Sixth
Circuit has been clear that “when a plaintiff’s alleged
adverse action is inconsequential, resulting in nothing
more than a de minimis injury, the claim is properly
dismissed as a matter of law.” Wurzelbacher v. JonesKelley, 675 F.3d 580, 584 (6th Cir. 2012); see also
Russell v. Metro. Nashville Pub. Sch., 2012 WL 3241664
at *5 (M.D. Tenn. Aug. 7, 2012) (“Plaintiff’s being ‘written
up’ is not an adverse employment action under the facts
of this case.”). The court will next examine Halliburton’s
actions with respect to the Letter of Reprimand/
Suspension.
Principal Wright provided a Declaration of events
she reported to Halliburton regarding the meeting

App.32a
with Sensabaugh and its aftermath. On October 6,
2017, the Letter of Guidance meeting with Sensabaugh
was tape recorded. Halliburton was not present for
this meeting, but others reported to her about Sensabaugh’s conduct. Halliburton was told that Sensabaugh became agitated, began pacing back and forth,
became belligerent and confrontational. He interrupted
Wright as she read the Letter of Guidance. Sensabaugh
then accused Athletic Director Kite of coming to work
“high” on prescription medication, and of offering
Sensabaugh this medication on multiple occasions. The
recording of the meeting corroborates these statements.
After the meeting, Sensabaugh proceeded to the
high school cafeteria where the players and coaches
were getting their pre-game meal before the football
game later that evening. Sensabaugh confronted
Athletic Trainer Grant. Grant stated Sensabaugh
appeared angry, paced back and forth, and said: “I’m
coming after you. I’m coming after your job. You’re not
a real trainer. You’re a wannabe trainer. I’ve got a real
trainer from Dobyns Bennett ready to take your job.”
Grant reported that he felt intimidated and he was
concerned that Sensabaugh would become physical if
Grant attempted to argue. This confrontation occurred in
the presence of students and coaches. Sensabaugh also
challenged the injured student in front of everyone and
said: “Did you tell them I practiced you?” The student
answered “yes” while holding his head down as if he
was afraid of Sensabaugh. Wright received almost
identical accounts from other parents and coaches present in the cafeteria. Coach Lewis also reported that
Sensabaugh said “I’m going after Josh next. Josh tried
to throw me under the bus too.”

App.33a
At the football game later that evening, it was
reported that Sensabaugh again used profanity in front
of coaches and players. Coach Lewis reported that a
player fumbled and as he was running off the field,
Sensabaugh loudly stated: “Don’t let that f**ker run
the ball again this year.” Coach Qualls also confirmed
that Sensabaugh called the student who fumbled the
ball a “f**ker.” Qualls also reported that prior to the
game, Sensabaugh proclaimed loudly so that everyone
around, including students, could hear: “Josh Kite has
a drug problem and has offered me Oxycodone. He
carries it around the school and I don’t care who hears
me.” Qualls told Wright that “the kids are fed up with
Coach Sensabaugh.”
Halliburton again sought advice from the Board’s
legal counsel, who recommended Halliburton issue a
letter of reprimand and suspend Sensabaugh with pay
pending the outcome of an investigation by an outside
law firm. A Letter of Reprimand was drafted advising
Sensabaugh of his suspension with pay pending investigation. Kite was also suspended with pay pending
investigation into Sensabaugh’s allegations of drug
use.
Again, as with the Letter of Guidance, the court
finds that the Letter of Reprimand/Suspension does
not constitute an adverse action against Sensabaugh.
The Sixth Circuit has squarely held that “being placed
on paid administrative leave while an investigation is
conducted into suspected wrongdoing is not an
adverse action.” Ehrlich v. Kovack, 710 F. App’x 646,
650 (6th Cir. 2017). Accordingly, the issuance of the
Letter of Suspension/Reprimand and the subsequent
suspension are not adverse actions. This is so despite
Sensabaugh’s claim that the letter did not contain

App.34a
“any instructions or information” as to how he would
be paid while on administrative leave. Nowhere does
Sensabaugh actually allege that he was suspended
without pay, and the record indicates that he was in
fact paid during this period. Thus, even accepting all
Sensabaugh’s allegations as true and drawing all reasonable inferences in his favor, the court finds that
Sensabaugh fails to allege an actionable adverse
action regarding the Letter of Suspension/Reprimand.
The court will proceed to examine Halliburton’s decision
to terminate Sensabaugh’s employment.
The Letter of Reprimand/Suspension was given to
Sensabaugh at a meeting with Wright on October 10,
2017. Assistant Principal John Verble and Curtis
Fullbright were present for that meeting which was
tape recorded. During this meeting, Sensabaugh was
rude and insubordinate. He questioned Wright about
her actions as Principal and attacked her competence.
The recording of the meeting substantiates these
statements.
In late January 2018, Halliburton was informed
that a bus driver recalled Sensabaugh riding the bus
with footfall players on one occasion and recalled Sensabaugh cursing at the players during that trip. The
video relating to that bus trip was located and was
provided to Halliburton. The video corroborates the
bus driver’s account of Sensabaugh’s behavior.
On February 9, 2018, the law firm investigating
the allegations against Sensabaugh issued its report.
It recommended that Sensabaugh be terminated.
Relying on the findings and recommendations made in
the investigative report, Halliburton wrote to Sensabaugh inviting him to provide any “written statements or other evidence you wish me to consider in

App.35a
your defense, whether in rebuttal to Attorney Baker’s
findings or in support of a less severe punishment.
Alternatively, you may request a meeting with me to
present your defense and to explain why I should not
terminate you.” Sensabaugh made no response to the
findings of the investigative report, nor did he request
a meeting with Halliburton. Sensabaugh’s employment
was terminated on March 15, 2018.
In making the decision to terminate Sensabaugh,
Halliburton relied on (1) the investigative report, (2)
statements made by Sensabaugh, (3) recording of the
Letter of Guidance meeting, (4) recording of the Letter
of Reprimand/Suspension meeting, (5) videos showing
Sensabaugh cursing at the students, and (6) the recommendation of the outside investigators. After consulting with the Board’s legal counsel, the decision was
made to terminate Sensabaugh’s employment.
Based upon the record herein, the court finds that
no reasonable jury could find that Sensabaugh’s
Facebook posts were a substantial motivating factor
for Halliburton’s decisions to issue the Letters of
Guidance/Reprimand/Suspension or to terminate Sensabaugh. Halliburton decided to terminate Sensabaugh only after a complete investigation by an outside law firm and after Sensabaugh had been given an
opportunity to respond to the investigation findings.
Even if Sensabaugh had established a prima facie case,
Halliburton has established through substantial evidence that she would have terminated Sensabaugh’s
employment absent his protected speech. Sensabaugh’s
actions of insubordination, use of profanity towards
students, and retaliatory conduct toward students and
co-workers were an independent justification for
Halliburton’s actions. There is no constitutional injury

App.36a
under the facts of this case. Accordingly, the court
finds that Halliburton is entitled to qualified immunity.
B. Municipal Liability
As regards the Board, Sensabaugh’s complaint
contains no allegation of a policy or practice of the
Board that was a moving force in causing an alleged
First Amendment violation. Instead, he seeks to hold
the Board liable for the actions of Halliburton.
A plaintiff raising a municipal liability claim
under § 1983 must demonstrate that the alleged federal
violation occurred because of a municipal policy or
custom. Monell v. Dep’t of Soc. Servs., 436 U.S. 658,
694 (1978). A plaintiff can make a showing of an illegal
policy or custom by demonstrating one of the following:
(1) the existence of an illegal official policy or legislative enactment; (2) that an official with final decision
making authority ratified illegal actions; (3) the existence of a policy of inadequate training or supervision; or (4) the existence of a custom of tolerance or
acquiescence of federal rights violations. Thomas v.
City of Chattanooga, 398 F.3d 426, 429 (6th Cir. 2005).
A municipality may not be sued under § 1983 for an
injury inflicted solely by its employees or agents.
Monell, 436 U.S. at 694.
Here, the Board has a policy that encourages and
respects employee rights to freedom of expression
under the First Amendment to the Constitution of the
United States. That policy says “Statements made by
an employee acting as a private citizen and speaking
on a matter of public concern are protected speech and
thereby not subject to disciplinary action by the school
system.” Moreover, the Board cannot be held liable for
any actions of Halliburton because there is no respon-

App.37a

deat superior liability under § 1983. Burgess v. Fischer,

735 F.3d 462, 478 (6th Cir. 2013). There must be a
constitutional violation for a § 1983 claim against a
municipality to succeed–if the plaintiff has suffered no
constitutional injury, his Monell claim fails. See City of
Los Angeles v. Heller, 475 U.S. 796, 799 (1986). Accordingly, the court finds that Sensabaugh fails to state a
claim against the Board for which relief can be
granted and the Board’s motion to dismiss is granted.
IV. Conclusion
In light of the foregoing discussion, the court
finds that Sensabaugh’s complaint fails to state a
claim upon which relief may be granted against the
Washington County Board of Education. In addition,
Halliburton is entitled to qualified immunity as to
Sensabaugh’s claims against her in her individual
capacity. Accordingly, The Board’s motion to dismiss
[R. 32] is GRANTED, and Halliburton’s motion for
summary judgment [R. 26] is GRANTED.
Ordered to Follow.
/s/ Pamela L. Reeves
United States District Judge

App.38a
JUDGMENT OF THE UNITED STATES DISTRICT
COURT FOR THE DISTRICT OF TENNESSEE
(NOVEMBER 19, 2018)
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF TENNESSEE
________________________
GERALD SENSABAUGH,

Plaintiff,
v.
KIMBER HALLIBURTON, in Her Official and
Individual Capacities, and WASHINGTON
COUNTY BOARD OF EDUCATION,

Defendants.

________________________
No. 2:18-CV-11
Reeves/Corker

Before: Pamela L. REEVES,
United States District Judge.
In accordance with the Memorandum Opinion filed
contemporaneously herewith, it is ORDERED that the
Defendants’ motions to dismiss and for summary judgment are GRANTED, and Plaintiff’s claims against
Defendants are DISMISSED, with prejudice.
The Clerk is DIRECTED to remove the trial
scheduled for September 10, 2019, from the court’s
docket.

App.39a
IT IS SO ORDERED.
/s/ Pamela L. Reeves
United States District Judge

App.40a
TEXT MESSAGES BETWEEN COACH
SENSABAUGH AND DIRECTOR HALLIBURTON
(SEPTEMBER 22, 2017)
SENSABAUGH DECLARATION, R. 41-1, PAGE ID # 1195.
________________________
Coach Sensabaugh: My phone is beeping in and out. I
can only text right now. I’m inside the school.
Director Halliburton: I know you are trying to help.
However, there is a history and information I
need to share with you. Good luck tonight!
Coach Sensabaugh: I’ve seen it all since I’ve been here.
This place needs major change.
Director Halliburton: I agree, but I need for you to
know all the facts so that you can better help us.

App.41a
TEXT MESSAGES BETWEEN COACH
SENSABAUGH AND PRINCIPAL WRIGHT
(SEPTEMBER 22, 2017)
SENSABAUGH DECLARATION,
R. 41-1, PAGE ID # 1195-1196.
________________________
Coach Sensabaugh: I’m pretty busy right now. I’m
sure things are a little hectic right now but please
text me your thoughts so I can gather more of my
thoughts.
Principal Wright: I’m with Mrs Halliburton...please take
the pictures of JES off your Facebook posting.. as
a district employee we may not have parent
permission to have these student school pics on
Facebook!
Coach Sensabaugh: So are you telling me that all
these pictures I’ve done with kids at school that
have been put on social media are cool........But
when I post content about concerns y’all want me
to delete the post. Is this what I’m hearing?
Principal Wright: Gerald.. these are elementary
students.. and the Director says parents can deny
their kids pictures be used by an employee on
social media.. she’s talking about the pictures
Coach Sensabaugh: I have been in many pictures with
Washington county elementary school kids, and
there has never been a issue with having kids
pictures in those. I’m trying to bring awareness to
the change you guys claim you want. This job is
not about football to me. It’s about overall change
to better our youth.

App.42a
Principal Wright: The principal of JES is worried
about these particular kids so he is requesting the
pics please come off
Coach Sensabaugh: It’s sad that this is all you guys
are worried about. Those kids were super excited
about me coming there. I was just surprised by the
conditions the school is in. Are parents complaining
about their kids being on there? Because with all
the social media that goes on I have never heard
of kids faces shown being a issue.
Principal Wright: If parents have signed a form that
pics of their kids can’t be published then legally
we can be sued.. that’s the concern
Coach Sensabaugh: Can you check on the couple kids
you might be able to recognize and see if any of
them signed that form?
Principal Wright: I believe you are really trying to
help the county.., I know where your heart is.. but
we need to sit down and talk with Mrs Halluburton. The principal is checking on pics and
forms.. people on social media are talking about
how horrible the teachers are and dogging the
whole school.. sad
Coach Sensabaugh: That’s not what I said, That’s
their opinion. It’s the support from the county
commissioner board that’s the problem.

App.43a
TEXT MESSAGES BETWEEN COACH
SENSABAUGH AND MAYOR ELDRIDGE
(SEPTEMBER 22, 2017)
SENSABAUGH DECLARATION,
R. 41-1, PAGE ID # 1198-1199.
Coach Sensabaugh: Hey, This is Gerald Sensabaugh.
Is there any plans for upgrades to the schools? I
just visited jonesborough elementary and that’s
got to be the worst school I’ve ever visited in my
life. I’ve been to many schools all over the country
but this one was a real head shaker
Mayor Eldridge: Gerald, The County Commission approved $20 million for additions and renovations
to Jonesborough Elem early this year. School
Board architects have concept plan ready for
board approval. Schedule anticipates bidding late
winter and start of construction next spring.
Boones Creek Elem and Middle schools replacement K8 is under construction now at a cost of
$25 million. $5 million has been approved for renovations to Jboro middle to convert it to Academic
Magnate.
More than $10 million in misc capital improvements
at other schools has been budgeted. More than $1
million a year is now being spent on technology in
the classroom.
We’re making progress. Certainly open to further
input you may have.
Coach Sensabaugh: This being year 2017. A school in
the heart of Jonesborough divided my partitions
and not walls is ancient to me. From what I hear

App.44a
I appreciate you and know that you are one of the
good guys. I really appreciate you. I was just
stunned when I went to that school to surprise
that kid and seen the conditions. I had a glimpse
of when I was 8 years old in Oakland California.
Mayor Eldridge: I agree, Jboro and BC Elem have been
like that for 45 years and to my knowledge it was
never a school board priority to fix it. We’re on it
now however.
By the way, we have also increased local operational funding to the school system by about 20%
in the last 7 years.
My daughter taught in the round part of Jboro 3
years, it’s a challenge to educate in that environment. You’re right, we have to do better!
Let’s have lunch week after next and talk more
about this. I see real opportunity! Also, congratulations on a strong start this season!
Coach Sensabaugh: Thanks we have to better this place.

App.45a
TEXT MESSAGES BETWEEN COACH
SENSABAUGH AND DIRECTOR HALLIBURTON
(SEPTEMBER 24, 2017)
SENSABAUGH DECLARATION,
R. 41-1, PAGE ID # 1199-1200.
Director Halliburton: I see you’ve posted something
else before knowing all the facts. Uncertain why
you are not taking my calls. I really would like to
speak to you.
Coach Sensabaugh: I don’t need to know all the facts.
Just my observation. Working on County Commissioners.
Director Halliburton: So. You are not going to accept
my calls?
Coach Sensabaugh: I just landed in Dallas. I will give
you a call when I get in my rental car. Should be
5 min
Director Halliburton: Great! Thanks.

App.46a
TEXT MESSAGES FROM BECKY CAMPBELL OF
LOCAL MEDIA TO COACH SENSABAUGH
(SEPTEMBER 25, 2017)
SENSABAUGH DECLARATION, R. 41-1, PAGE ID # 1200.
________________________
Becky Campbell: Hey Gerald, Becky Campbell here. I
haven’t heard back from Halliburton, but I did
talk to [Mayor] Dan Eldridge. He said he and you
texted on Friday about Jonesborough and he told
you about the plans for the school ($20 million in
renovations, he said), etc. He thought your FB
post was “premature and uninformed.”
He also said he invited you to lunch to talk about
the issues/concerns.
Any comment?

App.47a
LETTER OF GUIDANCE FROM PEGGY WRIGHT
TO COACH SENSABAUGH
(OCTOBER 5, 2017)
DAVID CROCKETT HIGH SCHOOL
684 Old State Route 34
Jonesborough, Tennessee 37659
Phone: (423) 753-1150 Fax: (423) 753-1167
________________________
Peggy Wright
Principal
Kent Green
Assistant Principal
Scott Hagy
Assistant Principal
John Verbie
Assistant Principal
Josh Kite
Athletic Director
Date: October 5, 2017
To: Gerald Sensabaugh, Football Coach, DCHS
From: Peggy Wright, Principal
Re: Letter of Guidance—Professional Responsibilities
This letter of guidance is due to your failure to
bring safety concerns to your immediate supervisors
at David Crockett High School and address instances
of your unprofessional conduct. It is also a letter of
guidance to share expectations with you in regard to
your use of profane language with students/football
players and the postings of pictures of students’ faces
on social media. In addition, I want to offer you guidance

App.48a
on following our athletic trainer’s directives and doctor’s
orders in regard to making injured players practice
while still under their physician’s and/or trainer’s care.
On Friday, September 22, 2017, you visited Jonesborough Elementary School. You took pictures of the
classrooms. You took one particular picture of a classroom full of students without the teacher or principal’s
knowledge. One particular picture had a couple of the
children’s faces visible, making them easy to identify.
Both I and the Director of Schools attempted to call
you. However, you did not answer your phone. You
tested me back and stated you could not talk and for
me to text you my thoughts. We exchanged several
texts, but I directed you to take down any pictures on
your social media posting with student faces depicted.
I expressed to you that the principal of Jonesborough
Elementary, Matt Combs, was concerned and uncertain
if the students in the picture had parental consent for
their pictures to be posted on the internet. The picture
is still posted today, even though I directed you a
second time on Sunday, September 24, 2017 in a phone
conversation to take that particular picture down.
The Director of Schools, Kimber Halliburton, and
I called you on Sunday, September 24, 2017. We
informed you that you were on speaker phone. I told
you we still did not know if we had parental consent
for the picture and directed you once again to take that
particular picture down. At no time did we ask you to
delete any of your comments or opinions on social
media. You have the right to comment on matters of
public interest on social media. As of today, the picture
depicting the students’ faces is still on your Facebook
page. We asked you to take down the photograph to
protect the privacy of students and their families. My

App.49a
concern and directive to you is my attempt to assist
you and protect you, our students and their privacy,
and honor and abide by our parents’ wishes and
requests under the Family Education Right to Privacy
Act (FERPA). As an employee of Washington County
Schools, you must abide by the law.
During this phone conversation, the director and
I attempted to address your concerns, but you screamed
into the phone whenever she or I attempted to speak.
You stated that, “Everyone at Crockett is a bunch of
Neanderthals.” You stated to Mrs. Halliburton that
the County Commissioners are just a bunch of old men
and it is time for change. Mrs. Halliburton attempted
to explain how much progress has been made with the
facilities plan and funding and that the Commission
has been very generous and supportive. However, you
would not listen to us. You yelled over us. We each asked
you several times, “May I talk now?” “Coach, can I
speak?” “Gerald, would you allow me to talk?” “Coach,
please listen.” However, you continued to shout at us
both. In addition, the director expressed she wanted to
share some facts and history with you of the progress
that has already been made. Your response was you
did not need the facts and that you only needed your
own observations. I believe this information would be
helpful so that you have all the facts.
Your direct supervisor, Athletic Director Josh Kite,
has shared parent complaints with you in regard to
your use of profane language with students. In August,
Mr. Kite shared with you that a parent complained
about Coach Treadway’s profane and inappropriate
language, He expressed that Mr. Treadway must stop
using inappropriate and profane language around the
players. On September 18, 2017, Mr. Kite met with you

App.50a
again. At that time, he had received a parent complaint
about your profane and inappropriate language with
players, His conversations and his expectations for
you were as follows, “Gerald, people in the stands and
your mother are hearing you and other coaches using
profanity and you need to fix it.” You responded, “My
mother needs to mind her own business and I am
going to tell her that.” You then expressed to Mr. Kite
that you were texting her to stay out of your business
and proceeded to text your Mother. You then asked
Mr. Kite to move the caution tape extending it out so
others would not be as close to you in proximity on the
sidelines implying you did not want others to be able
to hear you on the sidelines. It has been reported to
me from students that you have used the following
phrases directed to and at our students: “You are
pieces of sxxxx!” “You fxxxx sxxxx!” “You mxxxx
fxxxx.” These comments have been directed at individual
players and at the team collectively. As an employee
of Washington County Schools, you are required to
follow your supervisor’s directives and also expected
to conduct yourself professionally and appropriately.
You are expected to refrain from use of profanity or
inappropriate language around or at students.
On September 28, 2017, you received an email
which listed student players who were still under
the care of a physician or under our athletic trainer’s
care and were too injured/sick to play or practice. One
particular student was on that list, xxxx. On September
28, 2017, after receiving the list, you made student,
XXXX, practice against the trainer’s “player updates”
sent in his daily email to coaches. As the head football
coach at DCHS, you are required to follow physician

App.51a
orders and/or athletic trainer orders and updates
regarding players who are not cleared to practice or play.
I am directing you to bring any and all safety
concerns to me as principal. Furthermore, I am
directing you to immediately stop using profanity
when speaking to our students/football players and to
follow the athletic trainer’s/doctor’s orders completely
for injured students to protect their safety. You are
further directed to refrain from yelling or screaming
at me, our Athletic Director, and any other employee
of the Washington County School System. I am once
again directing you to take the picture of Jonesborough
Elementary students off of your post on social media
to protect the privacy of the students whose pictures
you did not have permission to use.
Failure to follow my directives may lead to discipline up to and including termination as our football
coach.
I am placing this communication in your employee
site file. I invite you to respond to this letter in writing.
I will attach your response to this letter and file it in
your employee site file as well.
Cc: Site File

App.52a
SEPARATION PRACTICES FOR
NON CERTIFIED EMPLOYEES
Descriptor Term:
Separation Practices for Non- Certified Employees
Descriptor Code: 5.2031
Issue Date: 1/3/2013
Suspension
The Director of Schools/designee may suspend an
employee at any time when deemed necessary.1
Dismissal
All non-certified (classified) employees are
employed at the will of the director. The Director of
Schools may dismiss any non-certified employee for
any reason at any time.
Notwithstanding the Director’s broad authority
to hire, direct and control, suspend or dismiss classified
personnel, if the Director elects to terminate a classified
employee for any reason that would preclude future
employment with the Washington County Department
of Education or that might disqualify the employee
from receiving unemployment benefits, then the Director
shall first require the employee’s supervisor to provide
the employee with written notice that the Director is
considering terminating the employee for cause along
with a summary of allegations. The employee may refute
the charges, request the Director to impose lesser
discipline, or simply ask for an explanation of the
1 TCA 49-2-301(b)(1)(EE)(FF)

App.53a
Director’s decision. At the Director’s option, the Director may require the employee’s supervisor to be present
and may permit the employee to bring witnesses to speak
on the employee’s behalf. After the meeting with the
employee, the Director may conduct whatever additional investigation s/he deems necessary and appropriate. After the Director believes s/he has investigated
the charges against the employee and has heard the
employee’s position on the charges, the Director shall
render a decision in writing. The Director’s decision
shall be final.

App.54a
ENGAGEMENT LETTER OF
ENSLEY BAKER SHADE
(OCTOBER 9, 2017)
ENSLEY BAKER SHADE, PLLC
Philip R. Baker
pbaker@ensleybakershade.com
________________________
Kimber Halliburton
Director of Schools
Washington County (TN) Schools
405 W. College Street
Jonesborough, TN 37659
Re: Washington County (TN) Schools
Workplace Investigation by Outside Counsel–
Employee Professionalism
Dear Ms. Halliburton:
We are pleased that Washington County Schools
has retained Ensley, Baker & Shade, PLLC to conduct
an independent workplace investigation into allegations of employee misconduct and to provide recommendations and legal advice regarding same. The purpose
of this letter is to clarify and confirm the scope of our
engagement as counsel and inform you regarding our
fees, billing and collection policies, and other terms
that will govern our relationship. Although we do not
wish to be overly formal in our relationship with you,
we have found it helpful to confirm with our clients
the nature and terms of our representation. Our
engagement may be terminated at will by either of us,
subject to payment of all fees for services performed and
costs advanced through the date of termination.

App.55a
Scope of Investigation
The scope of the investigation for which you
have retained our firm shall be limited to the allegations
contained in the “Letter of Guidance” provided to
Gerald Sensabaugh, David Crockett Football Coach,
by Principal Peggy White on or about October 5, 2017.
In addition, we have been asked to investigate allegations made by Coach Sensabaugh regarding alleged
misconduct by Athletic Director Josh Kite. At the
conclusion of our investigation, we will provide Principal
Peggy White with a written report, outlining our
findings, recommendations and legal advice regarding
these matters.
To the extent allowed by law, the information
collected during the investigation shall be protected by
the attorney-client privilege, work product doctrine, or
both. However, be advised that these privileges and
protections are not absolute.
Fees and Billing
Our hourly rates for conducting the investigation
will be our previously agreed upon discounted rate of
$175.00 for work performed by partners and $150.00
for work performed by associates. We recommend that
two attorneys be present for each witness interview,
which will help ensure the independence, objectivity
and accuracy of the process.
You will receive invoices for fees and expenses on
a monthly basis. These monthly invoices are due for
payment upon receipt. In the event that the invoice is
not fully paid within sixty days from the date it was
rendered, we will have the discretion to determine

App.56a
whether our withdrawal from this matter is appropriate under the circumstances.
Unless previously terminated, our representation of
you will terminate upon the conclusion of this matter
and the mailing of our final statement for services
rendered in connection with this matter. Following
such termination, any otherwise non-public information
you have supplied to us that we retained will be kept
confidential in accordance with applicable rules of
professional conduct. For various reasons, including
the minimization of unnecessary storage expenses, we
reserve the right to destroy or otherwise dispose of any
such documents or other materials we retained within
a reasonable time after the termination of the engagement but not to be less than five years.
If the above properly sets forth our agreement,
please sign and return a copy of this letter to me. If
any of the above is not clear, or if you have any questions, please do not hesitate to call.
Warmest regards,
Philip R. Baker
I understand and agree to the terms set forth
herein.
Name: /s/ Kimber Halliburton
Washington County Schools
Kimber Halliburton
Director of Schools
Date: 10/9/17

App.57a
COMPTROLLER’S INVESTIGATIVE REPORT
(MAY 21, 2018)
{ Images Excluded}
DAVID CROCKET HIGH SCHOOL
WASHINGTON COUNTY SCHOOL DEPARTMENT
COMPTROLLER’S INVESTIGATIVE REPORT
MAY 21, 2018
JUSTIN P. WILSON, COMPTROLLER
_____________________
TENNESSEE COMPTROLLER OF THE TREASURY
Justin Wilson

Comptroller

Jason E. Mumpower

Chief of Staff

May 21, 2018
Director of Schools and School Board Members
Washington County Department of Education
405 West College Street
Jonesborough, TN 37659
Ladies and Gentlemen:
The Office of the Comptroller of the Treasury
conducted an investigation of pertinent records of the
David Crockett High School, and the results are
presented herein.
Copies of this report are being forwarded to
Governor Bill Haslam, the State Attorney General,
the District Attorney General, certain state legislators,
and various other interested parties. A copy is available

App.58a
for public inspection in our office and may be viewed
at http://www.comptroller.tn.gov/ia/.
Sincerely,
Justin P. Wilson
Comptroller of the Treasury
JPW/RAD
__________________
INVESTIGATIVE REPORT
DAVID CROCKETT HIGH SCHOOL
WASHINGTON COUNTY SCHOOL SYSTEM
We performed an investigation of selected records
of David Crockett High School (DCHS) located in
Washington County, Tennessee, for the period March
6, 2017, through August 31, 2017. Findings and
recommendations, as a result of our investigation, are
presented in this report. Also, these findings and
recommendations, have been reviewed with the
district attorney general for the First Judicial District.
INVESTIGATIVE FINDINGS AND
RECOMMENDATIONS
FINDING 1: A cash shortage of at least $1,020 existed
at David Crockett High School as of August 31, 2017
A. The DCHS football team held a fundraiser
where they provided 300 season passes for sale for $30
each. These season passes allowed the purchaser to
attend five football games and receive a Pioneer Nation
t-shirt. Our review of deposits revealed that the school
staff member responsible for the fundraiser could not
account for 34 season passes resulting in a cash
shortage of at least $1,020 (34 times $30). The staff
member stated he gave away approximately 30 season

App.59a
passes to players, students, their families, and school
staff.
B. DCHS failed to ensure that the staff member
followed adequate procedures regarding the football
season pass fundraiser. The Tennessee Internal School
Uniform Accounting Policy Manual provides that for
ongoing resale activities monthly profit analysis reports
must be completed to document collections, expenses,
and any losses of money or product. The school must
maintain detailed records to support all amounts
recorded on these forms. If the profit analysis report
indicates a shortage, an explanation must be given for
the shortage. For activities that are not perpetual in
nature, profit analysis reports may be completed after
the conclusion of the activity. In addition, school
officials were unable to account for the disbursement
of some of the Pioneer Nation t-shirts purchased for
the fundraiser.
RECOMMENDATION:
A. DCHS officials should take steps to recover the
$1,020 cash shortage.
B. For each resale activity, DCHS should ensure
they comply with the provisions established by The

Tennessee Internal School Uniform Accounting Policy
Manual. The account sponsor or other designee should
prepare an accurate profit analysis.

FINDING 2: David Crockett High School had deficiencies in baseball concession operations
DCHS failed to ensure that adequate controls
over concession operations (collections) were established and followed. As a result, the accuracy of amounts

App.60a
recorded as collected could not be determined. In one
instance, over two months lapsed between the date
some concession funds were collected during a series
of summer baseball games and the date these funds
were received by the DCHS bookkeeper. In addition,
the school staff member responsible for concessions
used personal funds to provide the initial inventory of
food and drinks for concessions and then restocked
inventory with profits from the sale of concessions.

The Tennessee Internal School Uniform Accounting
Policy Manual provides money or property received by

a school official, employee, or volunteer, acting in his
or her official capacity, becomes public money or
property. The money is the property of the respective
school. Such money must be appropriately managed
and safeguarded by the school.
RECOMMENDATION:

DCHS should provide adequate oversight over
athletic event concession sales and ensure controls
over collections as set forth in The Tennessee Internal
School Uniform Accounting Policy Manual are
established and followed. Concession sale proceeds
should be deposited intact within three days after the
money is collected. When possible, collections should
be deposited daily, and a night deposit could be used
when necessary to comply with these provisions.
Concessions inventory should be purchased through
the school’s normal purchasing procedures.
INTERNAL CONTROL DEFICIENCY
DCHS officials failed to segregate financial duties
adequately or to provide increased oversight when
appropriate. The DCHS bookkeeper received collections,

App.61a
issued receipts, maintained the accounting records,
and delivered deposits to the bank. Officials should
segregate duties to the extent possible using available
resources.
MANAGEMENT’S RESPONSE (PARAPHRASED) —
KIMBER HALLIBURTON, DIRECTOR OF SCHOOLS
Recently the Washington County Department of
Education’s new finance director has implemented
several new policies to comply with The Tennessee

Internal School Uniform Accounting Policy Manual.
Some of these new policies and procedures are as
follows.

● All funds received on behalf of the school will
be counted at the end of the day/event by two
school employees and documented on a cash
count form. Both employees will sign this form
verifying the total funds collected.
● All funds will be stored appropriately on school
property, if at all possible, so the school bookkeeper can receive the funds and deposit them
the next business day, but no longer than three
business days.
● All inventory items for concessions purchased
must go through the school activity fund account
unless an unforeseen emergency situation
occurs. If this would occur, the principal and
athletic director must be notified and approve
a reimbursement request for the items required
for the emergency need.
● All relevant duties are to be segregated to the
fullest extent possible in each given situation.

App.62a
● The athletic director is directly responsible for
working with the bookkeeper to ensure the
above is implemented appropriately with any
discrepancies being reported to the director of
finance immediately.

App.63a
SOCIAL MEDIA POSTS: JOSH KITE AND
KIMBER HALLIBURTON
(JANUARY 2017-APRIL 2017)

App.64a

Josh Kite
16 January 2017
Thank you to the community for getting behind our
new football coach! First Class !
Josh Kite
@WCDSouthAD
Pioneer Proud !

App.65a

App.66a

App.67a

App.68a
SOCIAL MEDIA POSTS: KIMBER HALLIBURTON,
PRINCIPAL COMBS, PEGGY WRIGHT, AND
JONESBORO ELEMENTARY
(SEPTEMBER 22, 2017)

App.69a

Kimber Halliburton @Kimberhalliburt 22 Sep 2017
@WCDE_TN Teachers. Join me & catch the Friday
Fever for Instruction! Teach it! Bell 2 Bell delivery is
what YOU do best! #EvenBetter #Rigor

App.70a

Kimber Halliburton @Kimberhalliburt 22 Sep 2017
Amazing how many compliments I receive from parents
about our @WCDE_TN teachers when I’m out N the
community #relationshipsKey #happyWeekend
Going to make a 1st ever attempt2attend both @Crockett
Media & @BooneAthletics Football GamesCan I do it?
Uncertain Toga then Hawaiian Theme

App.71a

Kimber Halliburton @Kimberhalliburt 22 Sep 2017
@MengeBrandi @kaaleigherling What a beayty! I’ve
seen cheerleaders in my day, but this one takes the
cake!

App.72a

Kimber Halliburton @Kimberhalliburt 22 Sep 2017
@WCDE_TN Teachers, Join me @ catch the Friday
Fever for Instruction! Teach it! Bell 2 Bell delivery is
what YOU do best. #EvenBetter #Rigor

App.73a

Matt Combs @matt_combs10 22 Sep 2017
Ms. Osborne utilizing interactive read aloud as part of
her balanced literacy block to analyze character traits
#readytobeready

App.74a

Matt Combs @matt_combs10 22 Sep 2017
Using graphic organizers to take notes and summarize
text on Spanish explorers combines two of Marzano’s
high yield strategies.

App.75a

Brandi Menge @MengeBrandi 22 Sep 2017
Thanks to the @DCHSpioneers cheerleaders for being
so sweet to the JrPioneers! @Kimberhalliburt @kaeleigh
gerling

App.76a

Kelly Casey @kal_casey 22 Sep 2017
Look who’s in Pioneer Count! @PeggyDWright1
@WCDE_TN @Kimberhalliburt

App.77a

Kimber Halliburton @Kimberhalliburt 22 Sep 2017
A @CrockettMedia Mom, WC Teacher, Principal, &
Alumni at the game. Life is good when you’re a Pioneer!

App.78a

Peggy D. Wright Retweeted
Pioneer Press@DCpioneerpress 22 Sep 2017
Final! Crockett WINS! @Kimberhalliburt
@PeggyDwright1

App.79a

Peggy D. Wright Retweeted
Pioneer Press@DCpioneerpress 22 Sep 2017
Crockett v. Hampton @Kimberhalliburt @PeggyD
Wright1 @Gsensabaugh43

App.80a

Peggy D. Wright Retweeted
Pioneer Press@DCpioneerpress 22 Sep 2017
Pioneer Marching Band, Cheerleaders & Dance Team
host WUHL’s kickoff Friday.

App.81a

Peggy D. Wright @PeggyDWright1 22 Sep 2017
So proud of DCHS athlete Breanna Roy for Player of
the Week #PioneerProud

App.82a

App.83a

App.84a

Matt Combs Retweeted
Elliott Lowe @E_Lowe22 22 Sep 2017
Replying to @DaisyESanders
Thank you @D_Sander2nd I love our @JES_tigers
students and the great work they do!

App.85a

App.86a
SENSABAUGH FACEBOOK POST
(SEPTEMBER 22, 2017)
{Image}

App.87a
Gerald Sensabaugh updated his status.
22 September 2017
The real problem in Washington County:
Our last football game vs. Cocke County a kid
wanted to meet me because he was a fan and we were
unable to link up after the game. Today I went to his
school Jonesborough Elementary to surprise him and
his class. As I got escorted to his class I noticed that
classrooms were divided by partitions instead of walls.
Kids could literally hear other classroom noise and I
could see how kids would not be able to focus. It’s
pretty much a open floor plan with few walls. I also
walked by another class and seen kids reading in to
cardboard box cubicles on top of their desks. Being
from Oakland California I haven’t seen that since the
days when I use to get trouble in class and my teachers
made me sit in the corner with the same setup. This
was 1989-1994. This was the worst school learning
environment I have ever seen. Im sure that the staff
and students of this school are wonderful, however
this is an antiquated method of instruction. In my
opinion, the opportunity for students to focus on
learning is impossible in these conditions. I heard a
story from a former student about a rat running
through one of the classrooms and the kids went crazy
and it interrupted the whole school. Those who don’t
know me; I’m all about positive change. I called a
current County Commissioners and expressed my
concerns about this learning environment. He then
gave me a bunch of excuses and said they have it in
the plans for the next 2-3 years. I then ask him when
they are building all these programs for ETSU does
that take 2-3 years? and next thing I know he tells me
“I understand how you feel” then hung the phone up

App.88a
on me. I feel bad now for asking for sports facility
upgrades, equipment upgrades, more coaches pay,
more athletic trainers etc., when obviously the County
can’t afford to build walls within a school. This
community needs to support and help build a better
tomorrow for our youth because they are who will be
running this place in the future!!!!
591 Likes 187 Comments 369 Shares
Patti Jo Smith, David Woods, Kathleen Johnson and
588 others like this.
369 shares
Kimberley Harrell: Be the agent of change!
35w
Amber Steven Honeycutt: Exactly . . . . This has been
my argument since I learned of the “new” System of
teaching.. I don’t like it, I don’t agree with it and I hope
that this will be changed sooner than later . . . Thank
you Gerald Sensabaugh for noticing and attempting to
do something about it . . Our schools is our childrens
future . . We have to get some goo teaching and
learning methods back into our classrooms . . . . its
really sad Stay on it, I am sure many will support you
and your thoughts on this as many agree with you.
35w
Melissa Haney McFarland: He is commenting on the
facilities, not the teaching. JES has been in need of
a better facility for many years. They have great
teachers.
35w

App.89a
George Pierce: Great teachers but the teaching and
learning method of open classrooms! That’s I feel why
she mentioned teaching and learning methods
35w
Davi Sweeney: I not only attended this school, but
taught there for a short time. While this wonderful
administration and staff “make due”, it is sad. I
remember trying to take spelling test in 2nd and 3rd
grade while the class on the other side of the petition
were having music. It is not an ideal learning environment,

App.90a
SENSABAUGH FACEBOOK POST
(SEPTEMBER 24, 2017)

App.91a
Gerald Sensabaugh
24 September 2017
The real problem in Washington County Pt. 2
The movie Life came on TV last night starring
Martin Lawrence and Eddie Murphey. One of my
favorite movies of all time (very funny movie with a
lot of seriousness to take from it). The movie is set
during the Prohibition era which was from 1920-1933
I believe. One thing you notice in the movie is that the
prisoners are forced to do hard labor for the state
(chain gangs). Tell me why just about every morning
when I’m on my way to Jonesborough (which is a
lovely, beautiful ride) that I have to drive by prisoners
doing multiple types of labor for the city? See them
cutting grass, picking up trash, ect. What bothers me
at David Crockett is that prisoners are always on
campus doing work during school hours and also while
I’ve been practicing with my team. Our football
stadium needs to be condemned but its been freshly
painted, which actually looks really good. Guess who
was out there painting the stadium seats? Prisoners
. . . . not professional businesses that specialize in
painting. Coming from Dobyns Bennett High School, I
have never seen prisoners doing any work on campus
especially while we were there trying to learn. This is
a major area of concern for many obvious reasons. I
would never allow my kids to go to a school where
prisoners are freely walking around doing jobs. No
disrespect to the Prisoners but I want to know, ‘Who
gives the okay to support this”? I have a friend of mine
that owns a landscaping business in kingsport and he
has City contracts to maintain yards for city housing
complexes and more. My next question to whoever
okays this . . . . Do you allow prisoners to cut your

App.92a
grass and do repairs to your house while your kids are
running around? I share all my thoughts with my wife
and one day I asked her about my kids going to David
Crockett since I’m the Head coach there? “Hell No”,
was her response . . . . and I agreed. Who allows this
to be a part of Washington County Schools? I wonder
if the kids at Science Hill or University High have
to look at this while in their learning environment?
Prisoner Pic was a random pic from google (not real
prisoners in our area). I’m just trying to bring awareness that the kids of Washington County deserve
better. The kids in the schools are really good kids!!!!
175 Likes 57 Comments 54 Shares
Daniel Grace, Taleen Norman, Debbie Carver and 172
others like this.
54 shares
George Pierce: I’m all for prisoners doing labor for the
county like trash pick up and such but I’m with you,
on school grounds or during school hours is just wrong.
Most of them are duis and such but still it’s just
WRONG
35w

